Oversight Review           September 23, 2011


Quality Control Review of Naval Audit Service's
        Special Access Program Audits


          Report No. D-2011-6-012
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-8982.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(703) 604-8982, or by mail:

                       OAIG-APO
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 833)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
NAS                    Naval Audit Service
SAP                    Special Access Programs
GAGAS                  Generally Accepted Government Auditing Standards
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                           SEP 23 2011
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE NAVY

SUBJECT: Quality Control Review of Naval Audit Service's Special Access
         Program Audits (Report No. 0-2011-6-012)

We are providing this report for yoUI' information and use. We reviewed the Naval Audit
Service' s (NAS) system of quality control over Special Access Programs (SAP) audits
for the two years ended September 30, 20 I O. The generally accepted government
auditing standards (GAGAS) requires that an audit organization performing audits and/or
attestation engagements in accordance with GAGAS should have an appropriate internal
quality control system in place and undergo an external peer review at least once every
three years by reviewers independent of the audit organization being reviewed. As the
organi zation that has audit policy and oversight responsibilities for audits in the DOD, we
conducted the external quality control review of the NAS SAP audits in conjunction with
the Air Force Audit Agency's review of the NAS non-SAP audits.

An audit organization's quality control policies and procedures should be appropriately
comprehensive and suitably designed to provide reasonable assurance of meeting the
objectives of quality control. We tested the NAS SAP system of quality control for
audits to the extent considered appropriate.

In our opinion, the system of quality control for the audit function ofNAS SAP in effect
for the period ended September 30, 2010, was designed in accordance with quality
standards established by GAGAS . Further, the internal quality control system was
operating effectively to provide reasonable assurance that SAP audit personnel were
following established policies, procedures, and applicable auditing standards.
Accordingly, we are issuing a pass opinion on your SAP audit quality control system for
the review period ended September 30, 20 I O.

Appendix A contains comments, observations where NAS can improve its quality control
system. Appendix B contains the scope and methodology of the review. We appreciate
the courtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877) or Carolyn.Davis@dodig.mil.



                           ~~   Randolph R. Stone, SES
                                Deputy Inspector General
                                  Policy and Oversight
Appendix A. Comments, Observations, and
Recommendation
We are issuing a pass opinion because we determined that the NAS quality control
system is adequately designed and functioning as prescribed. We identified one area of
concern related to quality control. We judgmentally tested the reports for compliance
with GAGAS and NAS audit policies in nine areas to include independence, professional
judgment, competence, audit planning, supervision, evidence, audit documentation,
reporting, and quality control.

Quality Control

We identified that for one audit reviewed the working papers did not include a
referencing guide sheet that is part of the quality control procedures outlined in the Naval
Audit Service Handbook. GAGAS 3.50a (2007 Revision) states that each audit
organization performing audits or attestation engagements in accordance with GAGAS
must establish a system of quality control that is designed to provide the audit
organization with reasonable assurance that the organization and its personnel comply
with professional standards and applicable legal and regulatory requirements. GAGAS
3.51 requires that an audit organization’s system of quality control encompasses the audit
organization’s leadership, emphasis on performing high quality work, and the
organization’s policies and procedures designed to provide reasonable assurance of
complying with professional standards and applicable legal and regulatory requirements.

Naval Audit Service Handbook, Chapter 5, Section 511, 4(b), dated December 2010,
states that the referencer will electronically complete the mandatory referencing guide
sheet. Previous versions of the NAS Handbook to include one dated November 2008
also contained the requirement for a mandatory referencing guide sheet. The guide sheet
notes specific issues the referencer must consider throughout the report, and also lists a
number of key issues the referencer must consider regarding the working paper. While
this section of the NAS Handbook refers specifically to electronic working papers, the
NAS Special Audit Division had prepared working papers in hard copy documentation.
The hard copy documentation for one audit report reviewed, dated July 2009, did not
include the mandatory referencing guide sheet as the NAS Handbook requires. Although,
the referencer either did not complete the mandatory referencing guide sheet or did not
document it in the audit documentation, the items that the referencer was required to
check was included in the audit documentation.

Recommendation: We recommend that the Auditor General of the Navy issue a
memorandum to remind all SAP audit personnel the importance of complying with
established audit guidance relating to quality control for documenting the referencing
guide sheet in both electronic and hard copy audit documentation.



                                             2
Management Comments: Naval Audit Service’s Assistant Auditor General, Plans,
Policy and Resources Management concurred with the recommendation and stated that
an all-hands e-mail will be sent to the staff reminding them of the importance of
complying with established guidelines for documenting independent referencing,
including retaining the referencing guide sheet in the audit documentation.

Reviewer Response: Management comments are responsive. The Naval Audit
Service’s Auditor General sent an all-hands e-mail dated September 21, 2011. The
e-mail reminds auditors performing special access program audits that all ongoing and
future audits must comply with established quality control guidelines for documenting
independent referencing, including retaining the referencing guide sheet in the official
hardcopy or electronic audit documentation.




                                             3
Appendix B. Scope and Methodology
We limited our review to the adequacy of NAS SAP audits’ compliance with quality
policies, procedures, and standards. We judgmentally selected two SAP audits from a
universe of five SAP audit reports issued by NAS SAP auditors during FY 2009 and
FY 2010. We tested each audit for compliance with the NAS system of quality control.
The Air Force Audit Agency conducted a review of the NAS internal quality control
system for non-SAP audits and/or attestation engagements and will issue a separate
report. The Deputy Inspector General for Policy and Oversight will issue an overall
opinion report on the NAS internal quality control system that will include the combined
results of the SAP and non-SAP audit reviews.

In performing our review, we considered the requirements of quality control standards
contained in the 2007 Revision of GAGAS issued by the Comptroller General of the
United States GAGAS 3.56 states:

       The audit organization should obtain an external peer review
       sufficient in scope to provide a reasonable basis for determining
       whether the audit organization is complying with its quality control
       system in order to provide the audit organization with reasonable
       assurance of conforming with applicable professional standards.

We conducted this review in accordance with standards and guidelines established in the
March 2009 Council of the Inspectors Generals on Integrity and Efficiency “Guide for
Conducting External Peer Reviews of Audit Organizations of the Federal Offices of
Inspector General,” and the Quality Standards for Inspection and Evaluation. The Air
Force Audit Agency used this guide for review of the non-SAP audits at the NAS. We
reviewed audit documentation, interviewed NAS auditors, and reviewed NAS internal
audit policies. We reviewed the DOD OIG Report No. D-2009-6-001, “Quality Control
Review of the Naval Audit Service’s Special Access Program Audits” dated
October 9, 2008. We performed this review from June to August 2011 at one NAS
office.

We used the following criteria to select the audits under review:

       •   Worked backward starting with the FY 2010 audits in order to review the
           most current quality assurance procedure in place.

       •   Avoided audits with multiple SAPs associated with the audit for ease of
           access.

       •   Avoided audits that have the same or similar titles to ensure review of
           multiple types of projects.



                                             4
The following table identifies the specific reports reviewed.

     Report Number                        Date                             Title

       N2010-0056                  September 15, 2010           Use and Control of Military
                                                                Interdepartmental Purchase
                                                                Request (MIPR) Funds at
                                                                Classified Activities
       N2009-0042                     July 31, 2009             Funds Usages for
                                                                Department of Navy (DON)
                                                                Integrated Fire Control
                                                                (IFC) Developments

Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.




                                             5
Department of the Navy-Naval Audit Service
Comments




                      6
7
